OFFICE OF INSPECTOR GENERAL 


AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION'S
FISCAL YEAR 2013
COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002

AUDIT REPORT NO. M-000-13-005-P
SEPTEMBER 20,2013

WASHINGTON, D.C.
This is a summary of our report on the "Audit of the Millennium Challenge Corporation's Fiscal
Year 2013 Compliance With the Federal Information Security Management Act of 2002." The
Office of Inspector General (OIG) contracted the independent certified public accounting firm of
CliftonLarsonAlien LLP to conduct the audit in accordance with generally accepted government
auditing standards.

The objective of the audit was to determine whether the Millennium Challenge Corporation
(MCC) implemented selected minimum security controls for selected information systems to meet
the Federal Information Security Management Act of 2002 (FISMA) requirements to reduce the risk
of data tampering, unauthorized access to and disclosure of sensitive information, and disruption to
MCC's operations.

To answer the audit objective, Clifton assessed whether MCC implemented selected
management, technical, and operational controls outlined in National Institute of Standards and
Technology (NIST) Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations, Revision 3. Clifton performed audit fieldwork at MCC's
headquarters in Washington, D.C., from March 28,2013, to July 11, 2013.

The audit concluded that MCC implemented 116 of 141 selected security controls for selected
information systems in support of FISMA. For example, MCC complied with the following NIST
requirements:

• 	 Categorized its information systems and the information processed, stored, or transmitted in
    accordance with federal guidelines, and designated senior-level officials within the
    organization to review and approve the security categorizations.

• 	 Implemented an effective incident handling and response program.

• 	 Maintained an adequate and effective specialized training program for employees who
    needed role-based training.

• 	 Implemented an effective identification and authentication program.

• 	 Implemented an effective system maintenance program.

Although MCC generally h;:td policies for its information security program, its implementation of
those policies was not fully effective to preserve the confidentiality, integrity, and availability of
the Agency's information and information systems, potentially exposing them to unauthorized
access, use, disclosure, disruption, modification, or destruction.

To address the weaknesses reported in Clifton's report, OIG made 15 recommendations to
MCC's management. Four of them asked MCC to reopen recommendations made in the
previous year's audit. Although OIG acknowledged MCC management decisions on each of the
15 recommendations, it did not agree with MCC's management decisions for 2. Therefore, OIG
encouraged MCC to revisit its management decisions for those recommendations and revise
them to fully address the weaknesses identified in Clifton's audit report.
u.s. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov 

